CERTIFICATE OF SERVICE
No. 21In the
SUPREME COURT OF THE UNITED STATES

Joyce Rowley,
Petitioner, Pro Se
v.
City of New Bedford
Respondents
PROOF OF SERVICE
I, Joyce Rowley, do swear or declare that on this date, April_, 2021, as
required by Supreme Court Rule 291 have served the enclosed Petition
for a Writ of Certiorari on Respondent's counsel of record to the above
proceeding, and on the counsel of record for the intervenors, by U.S
mail, postage prepaid.
Counsel receiving service:
City of New Bedford, MA, Respondent
John Markey, Esq.
Markey & Walsh, LLC
50 Homer's Wharf
New Bedford, MA 02740
508-993-9711

Animal League Defense Fund and People for Ethical Treatment of
Animals, Amici Curiae
Jeffrey P. Richter, Esq.
K & L Gates, LLP
210 Sixth Avenue
Pittsburgh, PA 15222
Ph: 412.355.6500

I declare under penalty of perjury that the foregoing is true and
correct.

Executed on April"7 . 2021.
oyce Rowljyy

